  $@.                                             NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS
  z
   4
                                             CLOSEOUT MEMORANDUM
       ON o a<\'


 Case Number: I07100041                                                                      Page 1 of 1



          We received an email from an NSF Program officer' (PO) describing a concern about a principal
          investigator2 (subject) at a U.S. institution3 who accepted a position at a foreign university4.
          Allegedly, the subject was drawing salary from an NSF award5, which remained at the U.S.
          institution, while also getting salary from the foreign university where he holds a 12-month
          appointment; therefore, the subject was allegedly double dipping.

          The subject stated that for the time periods he claimed salary on the NSF grant, he was on paid
          leave from the foreign university. The paid leave is part of his annual entitlement and he had no
          obligations or duties to the foreign university during those times. Therefore, the fact that the
          subject was paid salary from the NSF grant while on paid leave from the foreign university does
          not constitute double billing. Accordingly, this case is closed.




                                                                                                              L
                                                                -

NSF OIG Form 2 (1 1/02)
